<html>
<title> - [H.A.S.C. No. 111-98]THE DEPARTMENT OF DEFENSE'S RAPID ACQUISITION PROCESS: IS IT A MODEL FOR IMPROVING ACQUISITION?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-98]
 
 THE DEPARTMENT OF DEFENSE'S RAPID ACQUISITION PROCESS: IS IT A MODEL 
                       FOR IMPROVING ACQUISITION?

                               __________

                                HEARING

                               BEFORE THE

                  PANEL ON DEFENSE ACQUISITION REFORM

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 8, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
57-696                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


                  PANEL ON DEFENSE ACQUISITION REFORM

                  ROBERT ANDREWS, New Jersey, Chairman
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
                Andrew Hunter, Professional Staff Member
                 John Wason, Professional Staff Member
                     Alicia Haley, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, October 8, 2009, The Department of Defense's Rapid 
  Acquisition Process: Is It a Model for Improving Acquisition?..     1

Appendix:

Thursday, October 8, 2009........................................    27
                              ----------                              

                       THURSDAY, OCTOBER 8, 2009
 THE DEPARTMENT OF DEFENSE'S RAPID ACQUISITION PROCESS: IS IT A MODEL 
                       FOR IMPROVING ACQUISITION?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Andrews, Hon. Robert, a Representative from New Jersey, Chairman, 
  Panel on Defense Acquisition Reform............................     1
Conaway, Hon. K. Michael, a Representative from Texas, Ranking 
  Member, Panel on Defense Acquisition Reform....................     3

                               WITNESSES

Brogan, Brig. Gen. Michael, USMC, Commander, Marine Corps Systems 
  Command........................................................     5
Dee, Tom, Director, Joint Rapid Acquisition Cell, Office of the 
  Under Secretary of Defense for Acquisition, Technology and 
  Logistics......................................................     7
Sullivan, Michael J., Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office..............    12
Zakheim, Dr. Dov S., Former Under Secretary of Defense 
  (Comptroller), Member of the Defense Science Board.............     9

                                APPENDIX

Prepared Statements:

    Andrews, Hon. Robert.........................................    31
    Brogan, Brig. Gen. Michael...................................    32
    Dee, Tom.....................................................    44
    Sullivan, Michael J..........................................    73
    Zakheim, Dr. Dov S...........................................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Andrews..................................................    91

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 THE DEPARTMENT OF DEFENSE'S RAPID ACQUISITION PROCESS: IS IT A MODEL 
                       FOR IMPROVING ACQUISITION?

                              ----------                              


                  House of Representatives,
                       Committee on Armed Services,
                          Defense Acquisition Reform Panel,
                         Washington, DC, Thursday, October 8, 2009.
    The committee met, pursuant to call, at 8:00 a.m., in room 
2261, Rayburn House Office Building, Hon. Robert Andrews 
(chairman of the panel) presiding.

OPENING STATEMENT OF HON. ROBERT ANDREWS, A REPRESENTATIVE FROM 
   NEW JERSEY, CHAIRMAN, PANEL ON DEFENSE ACQUISITION REFORM

    Mr. Andrews. Good morning, ladies and gentlemen. Thank you 
for your attendance at this morning's hearing of this panel. We 
feel very honored to have before us this morning a very 
distinguished group of gentlemen who have done much for our 
country and who, we know, will contribute much to our 
deliberations.
    The panel is continuing on its consideration of the core 
questions of whether the uniformed personnel of our country and 
taxpayers are getting full value for the money we spend on the 
procurement system; and there is a qualitative aspect to that 
and a quantitative aspect to that. We have gone through a 
series of hearings in which we have explored hypotheses as to 
the reasons why we are not getting that value.
    We have a slightly different twist on that approach this 
morning because we are looking at a case study that, by all 
accounts, is a success story where the public was able to 
achieve and the warfighters were able to achieve very high 
value, whether we measure that qualitatively or quantitatively 
or both.
    The issue before us is to look at this case study and to 
see whether there can be lessons learned from the case study. 
It would be instructive for the broader context of how we 
approach procurement here in the Department of Defense (DOD) 
for our country.
    The story is an impressive one. It became painfully and 
shockingly obvious to all those involved in the 2004-2005 cycle 
that something was terribly wrong in the way we were arming and 
equipping our warfighters to deal with a growing Improvised 
Explosive Device (IED) crisis in the two theaters in which we 
were operating at that time.
    I think it is very important the record note at this point 
the contribution of the former chairman of the full committee, 
Congressman Duncan Hunter, for whom the bill that did much of 
this work was named, and many members of the Democratic side--
certainly, Mr. Skelton was instrumental in many ways. Mr. 
Taylor, I remember, was instrumental in many ways. Any number 
of members of the full committee became personally and actively 
involved in a way that, I think, made a great difference.
    But--the most important difference makers were a series of 
people, certainly the troops in the field, who were ultimately 
responsible for the use of these new vehicles, but a lot of 
unsung heroes, as well, deserve credit: the engineers who did 
design, the planners who planned the industrial process, the 
procurement officials and staff who made the procurement 
happen, and logistical people who got the products delivered. 
There is a success story here that, I think, ``deserves to have 
many fathers'' as the saying goes.
    The facts here are compelling. We want to get beyond those 
facts and look at the reason.
    I think the most compelling fact is that this issue began 
to get serious currency in the discussions around these halls 
in early 2005. You might date it to February 2005. What is 
impressive is that from those very urgent discussions in the 
winter of 2005 to the most recent report in July of 2009, a 
period of about 4 years and 4 months, we went from urgent 
discussions to 13,848 vehicles being fielded. That is a 
substantial achievement, and I think the most important 
achievement is one, I would hope, the witnesses might address, 
which I think is implicit in the testimony, but needs to be 
made explicit.
    The impressive achievement here is not the speed at which 
this was accomplished or the quality of the product that came 
out of the process or, frankly, the relative cost-
effectiveness, from what I can glean in looking at the economic 
statistics. The real measure of success is that there are 
Americans who are with their families today, who are leading 
lives, whether still in the uniformed service of the country or 
not, who would not be here were it not for this progress, for 
whom we would be commemorating their loss on Memorial Day were 
this not successful.
    So I think the true measure of success here is in lives 
saved, injuries prevented and lives that are now thriving and 
going on as a result of this.
    So we are going to hear this morning from four witnesses 
who will talk about how this story unfolded, who will talk, 
frankly, about the challenges that still exist. I don't want 
the record to show that we think there is an unvarnished, 
unblemished story of success here. We can always learn from 
everything that we do, but we will have four witnesses who will 
talk to us this morning about how we went from an urgent 
discussion in the winter of 2005 to the present robust fielded 
capability, and lessons that we might then draw from that to 
improve our overall procurement system.
    I think that we have assembled four individuals who are 
eminently qualified to make these points, who have served in 
various departments and on various boards that we have created 
or directed to look at this issue, so we feel very fortunate to 
have you with us this morning.
    At this time, I would like to ask my friend, Mr. Conaway, 
for his opening statement.
    [The prepared statement of Mr. Andrews can be found in the 
Appendix on page 31.]

  STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE FROM 
   TEXAS, RANKING MEMBER, PANEL ON DEFENSE ACQUISITION REFORM

    Mr. Conaway. Well, thank you, Mr. Chairman.
    Gentlemen, thank you for being with us this morning. I 
appreciate that.
    In the last couple of hearings, we have looked at DOD's 
role in tackling the challenges facing the industrial base in a 
global market and another major component of the acquisition 
process, which is the purchase of commodities. As the chairman 
stated, today's hearing specifically looks at rapid acquisition 
and whether or not some or all of the changes made in the rapid 
acquisition process to reduce timelines can also produce 
improved outcomes in the regular acquisition process.
    Certainly, the lessons learned from the unique strategy 
used to procure the Mine Resistant Ambush Protected (MRAP) 
vehicles offer a good example of what is possible in terms of 
quickly getting a needed capability to the warfighter, and I 
cannot think of a better group of witnesses to discuss this 
issue with us, particularly General Brogan, who has had 
multiple opportunities to excel in front of the House Armed 
Services Committee, not only in regards to MRAP, but many other 
subjects as well.
    I would add that in looking at our witnesses' statements, 
one theme stood out. I believe it was Dr. Zakheim's statement 
that said, ``Any rapid response must be based on proven 
technology and robust manufacturing processes.'' In other 
words, rapid acquisition is not a place for accelerating new 
technology development. I believe this is one of the reasons 
why the MRAP program was so successful, and I look forward to 
hearing from our witnesses.
    Any panel that has got half of them named ``Mike'' and 
the--if we had had Coffman in here, it would have been a better 
comment, but if half of the committee is named ``Mike,'' we are 
going to get some work done this morning.
    So, with that, Mr. Chairman, I yield back.
    Mr. Andrews. We were hoping for some ``Roberts'' this 
morning, but it looks like we fell short in that category.
    Do we have any ``Jims''?
    Okay, thank you, Mike.
    You are all veterans of testimony here, so you know that 
your statements, without objection, will be entered into the 
record of the proceeding. I think the members have had a chance 
to read the statements. I have. We would ask you to give us a 
brief oral synopsis of your statements, about five minutes, so 
we can get to as much dialogue with the panel members as we 
can.
    I am going to take a few minutes and introduce each of the 
four witnesses. Then when I have finished the introductions, we 
will start with you, General, and we will roll through the oral 
testimony and get to the questions.
    General Michael M. Brogan is a native of Orrville, Ohio. He 
graduated from the University of Notre Dame with a Bachelor of 
Science degree in chemical engineering, and was commissioned as 
a Second Lieutenant.
    He has had a distinguished career. I am just going to read 
some of the personal decorations he has won: the Meritorious 
Service Medal with Gold Star, the Navy Commendation Medal with 
Gold Star, the Navy Achievement Medal, and the Combat Action 
Ribbon.
    He reported to the 1st Marine Division, Camp Pendleton in 
June of 1999, and assumed command of the 3rd Assault Amphibian 
Battalion (AABn). In July of 2001, he transferred to the 
National Defense University at Fort McNair as a student in the 
Industrial College of the Armed Forces (ICAF). He graduated 
from ICAF in June of 2002 with a Master of Science in national 
resource strategy. He reported to the Marine Corps Systems 
Command at Quantico and was assigned as the Product Group 
Director, Infantry Weapons Systems.
    In February of 2004, General Brogan reported to the Office 
of Direct Reporting Program Manager (DRPM) Advanced Amphibious 
Assault (AAA) for duty as the Expeditionary Fighting Vehicle 
Program Manager, and he became in September 2006 the Commander 
of the Marine Corps Systems Command.
    General, thank you for your service to our country. We 
appreciate it very much.
    Thomas Dee is a native of New York City. He is probably 
celebrating the Yankees' victory last night. He was appointed 
to the Senior Executive Service and assumed responsibilities as 
Director of Joint Rapid Acquisition Cell in March of this year. 
He is responsible for resolving immediate warfighter needs 
identified by the DOD's combatant commanders.
    He served the United States Navy from March of 1980 until 
his retirement in January of 2007. He held a variety of 
worldwide leadership positions, spanning Operations Desert 
Storm, Stabilization Forces (SFOR) and Kosovo Forces (KFOR) in 
the Balkans and several others.
    He holds a Master of Science degree in national resource 
strategy from the Industrial College of the Armed Forces, the 
National Defense University, a Master of Arts degree in 
international relations from the University of Southern 
California (USC), a Bachelor of Arts degree in history from New 
York University (NYU); and he lives in Great Falls, Virginia.
    Mr. Dee, thank you for your service and for being with us 
this morning.
    A true veteran of our committee, Dr. Dov Zakheim, has been 
here so often and has served us so well. He is now Senior Vice 
President of Booz Allen Hamilton. From April 2001 to 2004, he 
served as Under Secretary of Defense Comptroller and as Chief 
Financial Officer for the Department of Defense. From 1987 to 
2001, he was Corporate Vice President of System Planning 
Corporation. From 1985 until March 1987, he was Deputy Under 
Secretary of Defense for Planning and Resources in the Office 
of the Under Secretary of Defense for Policy.
    He is a graduate of Columbia University; he graduated summa 
cum laude from there; the London School of Economics, he 
studied there. He studied economics and politics at St. 
Antony's College, University of Oxford.
    He is the author of a dozen books or monographs, numerous 
articles. He has, frankly, been a great resource to this 
committee, and has served our country well.
    It is great to have you back with us this morning.
    Finally, last but certainly not least, Mike Sullivan--
another returnee. Mr. Sullivan serves as Director of 
Acquisition and Sourcing Management at the U.S. Government 
Accountability Office (GAO). He has been with the GAO for 23 
years.
    He has his bachelor's degree in political science from 
Indiana University, a master's degree in public administration 
from the School of Public and Environmental Affairs at Indiana 
University.
    Mr. Sullivan, we so much appreciate the dedication and 
excellence of you and your colleagues at GAO. We are happy you 
are with us here this morning.
    Mr. Andrews. So, General, we are going to ask you to begin. 
As I said, your written statement is already part of the 
record, and we would ask you to synopsize it. You are on.

STATEMENT OF BRIG. GEN. MICHAEL BROGAN, USMC, COMMANDER, MARINE 
                     CORPS SYSTEMS COMMAND

    General Brogan. Good morning, sir.
    Chairman Andrews, Representative Conaway, distinguished 
members of the panel, thank you for the opportunity to appear 
this morning, and thank you for your continued support of our 
men and women in uniform. I also appreciate that you made the 
statement part of the record without having to ask.
    I recognize that the focus of today's hearing is on the 
rapid acquisition of MRAP, but I would like to take just a 
couple of minutes and talk about overall rapid acquisition 
within the Marine Corps.
    Not only MRAP but all of the rapid acquisition that has 
been accomplished in the Marine Corps has been performed by our 
existing organizations, the Marine Corps Systems Command and 
the Marine Corps Warfighting Lab, and since its establishment 
in February of 2007, the Program Executive Office Land Systems.
    While we did grow a new program management office to 
perform the MRAP function, we did not create any ad hoc 
organizations. We were able to do this because of our Marine 
Corps culture of mission accomplishment and because succeeding 
Commandants have made it very clear that the number one 
priority is supporting our men and women who are engaged in 
combat.
    We are a small, flexible, uniformed service, and we 
encourage innovation; and at Marine Corps Systems Command, I am 
fortunate to have all of the authority that is necessary to 
accomplish the mission.
    Certainly, the Marine Corps, during this conflict, has 
developed and refined the process that we use to respond to 
urgent universal needs statements. But we encourage rapid 
response, and the Acquisition Demonstration Project, the 
predecessor to today's National Security Personnel System, 
allowed us to reward this type of behavior.
    Operating with a sense of urgency and exploiting speed are 
part of our culture. It is nested within the theory of maneuver 
warfare that is inculcated in every marine. It is the very 
foundation of how we operate as marines. Urgency drives how we 
plan to conduct operations in the operating forces, and it is 
codified in a rapid response planning process that is used to 
great extent by the Marine Expeditionary Units that forward 
deploy. Inherent in this is the willingness to accept risk, to 
make decisions and to operate without complete information.
    Turning now to MRAP, the foundation for its success was our 
mind-set to accomplish the mission and the focus on the only 
metric that mattered--how many trucks got in the hands of the 
warfighter. To be sure, we tracked many other things--how many 
were produced, how many were in transit in the United States, 
how many were being integrated at Space and Naval Warfare 
Systems Command (SPAWAR), how many were being transported by 
United States Transportation Command--but the thing that we 
focused on was how many vehicles were actually fielded.
    It began for us in the fall of 2006 when the Marine Corps 
Requirements Oversight Council (MROC) approved the requirement 
and when we issued the first sole-source award to Force 
Protection, Inc. That award was made on the 6th of November, 
coincident with the release of the full and open competition 
request for proposals. That same sense of urgency was fostered 
by Dr. Etter, former Assistant Secretary to the Navy for 
Research, Development and Acquisition, as she chaired weekly 
synchronization meetings that were attended by senior members 
of the Department--Secretary Bolton, the Deputy Director of 
Operational Test and Evaluation, and the Deputy Director of J-
8.
    It was further demonstrated by folks like Colonel John 
Rooney at the Aberdeen Test Center, who made it his number one 
priority to test these vehicles. Captain ``Red'' Hoover, the 
commanding officer at SPAWAR in Charleston; folks from the 
Defense Contract Management Agency (DCMA); unsung heroes like 
Sid Polk at the Office of Secretary of Defense Industrial 
Policy, who went out and looked for pinch points as we began to 
ramp up. Many others in the early days who are not well known 
contributed significantly to this effort. In the spring, 
Secretary Young was assigned to lead a task force to help 
remove barriers and accelerate the program.
    What has been well chronicled is, in May of 2007, Secretary 
Gates made MRAP the number one priority for the Department of 
Defense, and he approved the ``DX'' rating--the highest 
priority within the Defense Priorities & Allocations System. 
Certainly, that brought the formidable resources of the entire 
Department to bear and accelerated the program.
    The Program Manager, Paul Mann, frequently refers to MRAP 
as the ultimate team sport. In fact, it is. Throughout the 
Department and with our industrial partners, we have been able 
to ramp this up. Many individuals and organizations have 
contributed to its success.
    Finally, the entire program was accomplished within the 
existing acquisition regulations. All of the actions normally 
required of an Acquisition Category 1D program have been done 
by MRAP. They were not all done in the normal sequence. Many of 
them were tailored, but they have all been accomplished. The 
key was to view those regulations as permissive, not 
prohibitive, to see opportunities and not challenges, to look 
for possibilities and not obstacles; and always the focus was 
on the 19-year old lance corporal that we are charged to 
support.
    Thank you for this opportunity, and I look forward to your 
questions.
    Mr. Andrews. General, thank you very much.
    [The prepared statement of General Brogan can be found in 
the Appendix on page 32.]
    Mr. Andrews. Mr. Dee, welcome to the panel.

 STATEMENT OF TOM DEE, DIRECTOR, JOINT RAPID ACQUISITION CELL, 
   OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR ACQUISITION, 
                    TECHNOLOGY AND LOGISTICS

    Mr. Dee. Thank you, Chairman, Representative Conaway and 
members of the panel. Thank you for the opportunity to speak 
before you today. And I also thank you for entering my comments 
for the record so I can speak a little more extemporaneously 
and a little quicker probably, than reading through this whole 
thing.
    Mr. Andrews. Please take your time.
    Mr. Dee. So let me make a couple of key points on rapid 
acquisition within the Department.
    As you noted, the Department early on in Operation Iraqi 
Freedom, recognized the need to be able to respond to 
unanticipated urgent needs identified out in the battlefield 
inside of a current execution year and with a little bit more 
priority than--or with a little more urgency than would 
normally be provided through the normal Planning, Programming, 
Budgeting and Execution System (PPBES) process.
    To that end, the JRAC, the Joint Rapid Acquisition Cell, 
was established by Deputy Secretary Wolfowitz back in 2004. Our 
charge is to track those Joint Urgent Operational Needs (JUONs) 
that are identified by the combatant commanders that fall 
outside of the services' normal responsibility.
    JRAC does not oversee all of the rapid acquisition efforts 
within the Department. Under title 10, each of the services has 
established processes to facilitate a timely response to their 
service-identified need, and there have been lots of those. The 
Army alone has had over 7,000 operational needs statements and 
urgent operational needs statements that they have responded 
to.
    General Brogan very eloquently talked about the successes 
with the MRAP Task Force and the Joint MRAP Program Office. 
There have been other task forces established by the 
departments to include task forces or other organizations to 
include the Joint IED Defeat Organization, JIEDDO; the 
Intelligence, Surveillance, and Reconnaissance (ISR) Task 
Force; the Biometric Task Force. My organization itself was 
established to respond to these urgent requirements. All of 
those various bodies have responded to needs ranging from 
Explosive Ordnance Disposal (EOD) robots to ISR equipment, 
MRAPs, of course, and lots and lots of other sorts of 
capabilities.
    I need to point out, though, and to echo General Brogan, 
that the topic for today is rapid acquisition. But you cannot 
look at the acquisition process itself in isolation from the 
rest of the processes that lead to a capability.
    In order to produce something, to get something out into 
the field, you begin by understanding and identifying what your 
requirements are--being able to assess what those needs are, 
rapidly assess what those needs are, and identify potential 
solutions. You need to provide adequately and timely resources 
inside of a current execution year in order to be able to 
respond to those proposed solutions. And then you need to 
initiate the acquisition process in order to actually produce 
and procure the selected solution and, of course, provide the 
life cycle support for that.
    So, as we look at what needs to be done in order to more 
rapidly provide capabilities into the field, you need to 
consider not just the acquisition process itself, but all of 
those elements which make up, essentially, the Department's 
planning program and budgeting and execution system.
    Dr. Zakheim will talk more eloquently than I will about his 
task force, the Defense Science Board (DSB) Task Force, on the 
fulfillment of urgent operational needs. It recognized the need 
for rapid and agile acquisition in a time of war, and it 
recommended two separate acquisition structures, one for 
deliberate and one for rapid acquisition. We are reviewing 
those recommendations still within the Department, but we 
recognize that there is a risk in accepting these two distinct 
structures.
    We need to accept that all acquisitions, whether in wartime 
or peacetime, need to become more agile and responsive in order 
to keep pace with accelerating development cycles--which are 
enabled through accelerated development cycles, especially in 
terms of information, technologies, communications 
technologies, et cetera. To echo Representative Conaway's 
point, we need to have mature technology in the bank that can 
be rapidly fielded.
    To that end and under the leadership of the new Under 
Secretary for Acquisition, Technology and Logistics and his 
Director of Defense Research and Engineering (DDR&E), Mr. Zach 
Lemnios, the Department has restructured the Directorate of the 
Defense Research and Engineering to emphasize rapid development 
and the fielding of new technologies.
    The trick is being able to anticipate new threats and new 
requirements before they get to the point that they need to be 
urgent, and we are starting from scratch within an execution 
year.
    We believe that we have begun the process and have begun 
building the foundation for future science and technology 
efforts within this new organization with the rapid fielding 
office within DDR&E, and we believe that we are on the path to 
developing that technology that can be rapidly transitioned.
    I have to add one more thing, and that is the support that 
we have received from Congress. The MRAP Task Force and JIEDDO 
are two great examples of support that we have gotten primarily 
from the resource perspective--as I mentioned earlier, identify 
requirements, be able to do an assessment, provide ready 
resources in order to be able to provide something.
    It is difficult to find resources within a current 
execution year. We have submitted within our budget submission 
for fiscal year 2010 a request for rapid acquisition funds. I 
understand, as of last night, that request was not approved, 
and we will continue to struggle with finding resources in the 
current execution year for rapid acquisitions.
    So we appreciate the support that Congress has provided, 
and we appreciate the opportunity to speak with you today. I 
believe that the Department has embraced the lessons learned 
from Iraqi Freedom, from Enduring Freedom, and that we are on 
the path to more responsive and agile acquisition.
    We look forward to your questions.
    Mr. Andrews. Thank you very much, Mr. Dee.
    [The prepared statement of Mr. Dee can be found in the 
Appendix on page 44.]
    Mr. Andrews. Dr. Zakheim, welcome back.

  STATEMENT OF DR. DOV S. ZAKHEIM, FORMER UNDER SECRETARY OF 
   DEFENSE (COMPTROLLER), MEMBER OF THE DEFENSE SCIENCE BOARD

    Dr. Zakheim. Well, thank you very much, Mr. Chairman. It is 
good to be back in front of the committee, and I am privileged 
to appear before this particular panel.
    I am really going to be discussing in telescoped form the 
findings of a rather thick task force report; and as you know, 
the task force was chaired by Jacques Gansler, former Under 
Secretary for Acquisition, Technology and Logistics (AT&L), who 
really is an expert in the field.
    The fundamental issue facing DOD after more than eight 
years of war is that it still really doesn't have a coherent 
system for addressing urgent operational needs coming out of 
the battlefield. Put very simply, it is just not agile enough 
to enable commanders to respond quickly in the most effective 
way possible to the demands of countering systems such as IEDs, 
these technologies that our enemies are able to gather and put 
together and employ very quickly.
    You just heard that over 7,000 needs statements have 
already come to the Department over the course of the war just 
for the Army alone. Right now, the defense acquisition 
community has created over 20 different ad hoc organizations to 
deal with the problem. There is nothing that is permanent. The 
only permanent thing is the JRAC, that Mr. Dee heads up, and 
that has been around for a few years.
    We have to find a way for the Department of Defense to 
field militarily useful solutions more quickly. Because of the 
nature of the current threat environment, we need to have 
institutional changes in acquisition, in programming and in 
budgetary systems to account for this growing sophistication of 
flexibility on the part of the threat.
    In addition, the Department does not often employ 
operations research and systems analysis when it determines the 
best response for an urgent need that sometimes is couched in 
terms of a mission rather than a specific system or a specific 
item. We need to figure out what is the best choice. So let me 
run you through the findings very quickly.
    We believe that all of DOD's needs cannot be met by the 
same acquisition process. We do need, in our view, to codify 
and institutionalize a separate set, a parallel set, of rapid 
acquisition processes and practices that can be tailored to 
expedite the rapid delivery of capabilities that warfighters 
need.
    We found that because the notion of ``rapid'' is 
fundamentally countercultural to the way the bureaucracy 
thinks. And the bureaucracy--and this is quite right--their 
approach is to stick within the system, to stick to the rules, 
to cross every ``T'', to dot every ``I''. The trouble is, if 
you dot every ``I'' and cross every ``T'', there are people 
getting killed out there in the meantime until all the ``Ts'' 
got crossed.
    So the issue is, how do you create a system--how do you 
create a culture of dealing with creativity and work-arounds 
that goes totally counter to the T-crossing and I-dotting? Not 
simple.
    Another finding: Any rapid response has to be based on 
proven technology and robust manufacturing processes. Mr. 
Conaway mentioned that. It does not matter where it comes from. 
If it works, use it.
    Another finding: Current approaches to implement rapid 
responses to urgent needs are not sustainable. As I said, you 
cannot have a permanent approach to what looks like a very 
long-term challenge if everything is ad hoc.
    And we need an integrated triage process. Some of these 
requests can be met by logistics activities. They do not really 
need to gin up the acquisition community; but if you do not 
have a triage system, if you do not have an overlooking system 
that addresses these questions, you just do not know. You may 
be going to the wrong place.
    Then, whether there are personnel barriers, budget barriers 
or process barriers; these are huge inhibitors to successful 
rapid acquisition.
    What we need is an institutionalized capability to deliver 
joint capabilities rapidly and efficiently. We have got to be 
aware of the global marketplace. We have got to increase the 
use of all contracting authorities. We do not do that.
    We need a different workforce culture, and we need to 
incorporate good practices that do exist because, in these 20 
ad hoc organizations, if you actually go through them, you will 
find some good practices, but they are not across the board.
    So what are our recommendations?
    First, a dual acquisition path, as I mentioned. The only 
way to really deal with this is to have a separate path with a 
separate culture, getting the people who are the best and the 
brightest. And we should have a standard definition for what we 
mean by an ``urgent need.'' You know, there are JUONs, there 
are ONs. I mean, there is an alphabet soup of different ways of 
dealing with these urgent needs, and the definition ought to be 
that an ``urgent need'' is one that if left unfulfilled, will 
seriously endanger personnel and/or pose a major threat to 
ongoing or imminent operations, period. That is what should be 
an ``urgent need.''
    Second recommendation: Both the executive and legislative 
branches have to create a fund, in our view, for rapid 
acquisition and fielding, something like the Small Business 
Innovative Research Fund, SBIR. We think it ought to be about 
0.5 percent of the DOD budget, it should be replenished 
annually with a cap of about $3 billion, and the funding should 
not expire.
    Now, you just heard a lot more modest request did not get 
through. We believe that, if you are really serious about rapid 
acquisition, over the long term and in an institutional way, 
this is what you have to do. This is a partnership between the 
executive branch and Congress.
    And we believe that the funding should be transparent. We 
discussed this at great length on the task force, and I think 
you remember that. We would issue quarterly reports for this. 
Congress could require additional notification. There would be 
an oversight group. The group would not only involve DOD 
personnel, cochaired by the Under Secretary for AT&L, right now 
Ash Carter, and the Vice Chairman, right now General 
Cartwright, but also representatives from the combatant 
commands, who are members, and Congressional appropriators 
could be invited as permanent observers. In other words, 
Congress would have a sense of hands-on oversight.
    The third recommendation--and this may be the most crucial: 
The Secretary of Defense (SecDef) should create a Rapid 
Acquisition and Fielding Agency (RAFA). It should be within the 
office of AT&L. It should look for what Mr. Gates himself 
called a 75 percent solution. It should be similar 
organizationally to the Defense Logistics Agency and to the 
National Security Agency, led by a three-star-level officer 
reporting directly to USD AT&L and dotted line to the Vice 
Chairman.
    The mission would be purely and simply to address combatant 
command needs rapidly with proven and emergent technologies 
within 2 to 24 months. If you cannot do it within 24 months, it 
is outside the bounds of what we mean by ``rapid acquisition.''
    I list in my statement a whole list of requirements or 
things that RAFA would manage, and I can get back to those if 
you ask me to. It should not be a large workforce--the best and 
the brightest, both from the military and the civilian, with 
incentives for both the military and the civilian side to put 
the best and the brightest people in there, but small enough to 
be effective, large enough to carry out its tasks. And we would 
hope that there would also be parallel organizations within the 
services to work with this new RAFA unit.
    Fourth recommendation: Initial funding and billets for this 
new organization could be based on absorbing and integrating 
existing programs and organizations. You can imagine this will 
be the biggest bureaucratic fight of all. Taking people and 
money is not easy, let me tell you. I have been there.
    Fifth recommendation: DOD should establish a streamlined, 
integrated approach for rapid acquisition. This RAFA 
organization should deal with essentials only in terms of both 
what is required and how quickly it is fielded. Two to 24 
months should be the fundamental guideline, and RAFA and the 
services should manage the actual process of getting into 
production.
    We believe it is imperative that the Secretary of Defense, 
the Joint Chiefs of Staff and the service leaders begin to 
implement all five of these recommendations. In this regard, it 
is really gratifying that Under Secretary Ashton Carter has 
articulated concerns similar to those of the task force, as you 
just heard, and as he actually mentioned in a recent meeting of 
the Council on Foreign Relations in front of a very large 
audience.
    So we know the Department's heart is in the right place--
there is no question about it--but existing urgent needs remain 
to be fulfilled. With increasingly limited resources available 
to fund them, the potential for new and more devastating 
capabilities from adversaries continues to enlarge; and we 
strongly believe--and we know everybody in this room agrees 
with us--that the men and women of the Armed Forces, who stand 
in harm's way, deserve nothing less than the support of a new, 
streamlined system to meet their urgent battlefield needs.
    Thank you, and I look forward to your questions.
    Mr. Andrews. Doctor, thank you very much.
    [The prepared statement of Dr. Zakheim can be found in the 
Appendix on page 51.]
    Mr. Andrews. Mr. Sullivan, welcome.

  STATEMENT OF MICHAEL J. SULLIVAN, DIRECTOR, ACQUISITION AND 
   SOURCING MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Thank you, Mr. Chairman. It is a pleasure to 
be back before the panel. I appeared a couple of months ago, 
discussing other matters. Today is about rapid acquisitions.
    Last year, we reviewed the Mine Resistant Ambush Protected 
rapid acquisition program to determine if it was able to 
deliver urgent capabilities to the field in a timely manner, 
and we found it to be very successful in doing that. I see four 
essential keys to that success that are germane to today's 
discussion.
    First, the Department kept operational requirements to a 
minimum. Second, the program used only mature technologies and 
stable designs--something we have heard from everybody today. 
Third, the program was given the highest priority and a ``DX'' 
rating by the Secretary of Defense. And fourth, the Department 
ensured full and timely funding for the program.
    The question today is: Can this formula be applied to all 
of DOD's acquisitions and the broader acquisition process?
    Certainly, the first two keys to success, doable 
requirements and known technologies, are possible under today's 
process. In fact, due to recent acquisition reform legislation 
by the Congress and the Department's own changes, the process 
has policies in place that encourage those things. In fact, 
there are a handful of acquisition programs, past and current, 
that have adhered to these principles and have succeeded or 
appear to be doing very well, such as the F-16 and the F/18-E/F 
programs, the Joint Direct Attack Munition, the Shadow UAV, the 
small diameter bomb, and more recently, the P-8A and the SM-6 
programs. However, this acquisition culture rarely accepts the 
75 percent solution, which is very much what those programs 
represent. So they remain the exception and not the rule.
    On the other hand, the last two keys that I mentioned above 
are not possible across the broader acquisition process today. 
First, not every program can be the highest priority, and 
second, there are constraints that every program must accept 
when it comes to funding. Therefore, we see merit in the 
recommendations that Dr. Zakheim just went through from the 
Defense Science Board study on urgent needs that was issued, I 
think, this past July, which offered two separate acquisition 
processes, which he went through--a rapid process and a 
deliberate process.
    The study deals with the assignment of highest priority by 
suggesting a triage process that would characterize the urgency 
of the need and exhaust other nonmaterial solutions, as Dr. 
Zakheim talked about; and it also recommends the highly 
transparent rapid acquisition fund. I think you would put in 
kind of a half a percent of the DOD budget as a starting point 
for that to ease the availability of funding.
    These are ideas that would improve our rapid acquisition 
processes, and I think we agree with that. The report did not 
focus too much on the current process or the deliberate process 
in detail. That was not necessarily its objective.
    I would like to bring a new dimension to our discussion of 
acquisitions that has not received a lot of attention and which 
could, in our opinion, be another game-changer for the 
acquisition process. Mr. Dee referred to it a little bit. It 
has to do with science and technology.
    For over a decade, GAO has issued a broad body of work that 
examines best practices and underscores the need for all that 
we talked about--faster development times, more predictable 
costs and faster delivery to the field using best practices. As 
early as 1999, we reported that successful enterprises achieve 
this by separating technology development from product 
development. That means not allowing immature technologies into 
the acquisition process, and investing significant time and 
money in maintaining a vibrant and relevant technology base 
that can fuel acquisition programs with needed technologies 
more quickly.
    We have, for years, noted that, while the Department must 
often depend on beyond-the-state-of-the-art technologies to 
maintain our national security, it does not fund or organize 
its science and technology organizations and processes to bring 
those technologies to acquisition programs that require them. 
As a result, our current acquisition programs are continually 
faced with needing immature technologies to make great advances 
in weapons systems, something the MRAP did not have to do.
    We can do better than that with the current process, so I 
would like to submit an additional dimension for this panel to 
consider as it continues to work on improving acquisitions.
    I believe we can improve the chances of the current process 
by examining the best ways to organize, fund and coordinate the 
Department's science and technology organizations. A more 
vibrant technology base would allow the Department to manage 
significant risk in its proper environment where the 
investments are less and where there is time for trial and 
error and discovery, if you will.
    Investing more up front and gaining knowledge and 
demonstrating technologies before they have to go on to 
acquisition programs seems appropriate for a national security 
mission that demands cutting-edge performance in concert with 
speedy delivery of critical capabilities to the warfighter; and 
we would do anything the panel or the committee would like to 
work with you on in trying to develop best practices in that 
area.
    With that, I will conclude, and I look forward to any 
questions.
    Mr. Andrews. Well, thank you Mr. Sullivan.
    [The prepared statement of Mr. Sullivan can be found in the 
Appendix on page 73.]
    Mr. Andrews. Thank you to each member of the panel. You 
have completely met our high expectations this morning. We 
appreciate it very much.
    Mr. Sullivan, I will start with you. The conclusion of your 
testimony really spoke to this.
    One of the observations about the success of MRAP was the 
use of mature technologies. It is not hard, though, to imagine 
a situation where the next time there is an urgent need there 
will not be a mature technology there to meet it.
    I agree with you. In the absence of that mature technology, 
a rapid acquisition process does not make any sense at all.
    I think I heard you recommend that we create a sort of 
bullpen of technologies that perhaps have not been used yet, 
but would be on call for that kind of situation. Describe for 
me a little more about how we would define the mission of that 
organization that would develop those technologies. How would 
we derive the requirements, for example?
    Let's say that we assembled a group of scientists and firms 
inside and outside the government and said, ``We want you to 
start thinking about and developing technology that we think 
there is a high probability we are going to need in a hurry.'' 
Who would set the requirements for that organization and how?
    Mr. Sullivan. Well, the work that we have done in the past 
on that--and it has been a while to do that, but we tried to do 
a best practices look at that. So we looked at corporations as 
entities as you would, say, the Department of Defense. I think 
the critical thing that has to happen is that there has to be 
corporate leadership, and there has to be some unifying factor 
for that, that can break down the stovepipes.
    You know, for example, there are many companies that have 
different product lines----
    Mr. Andrews. If I may, for whom in the DOD organization do 
you think this leader should work?
    Mr. Sullivan. I think, right now, under the Under Secretary 
for Acquisition Technology and Logistics, it would work fine 
because DDR&E and the Science and Technology (S&T) community 
would come under that.
    Mr. Andrews. Well, this sort of segues into a point that 
Dr. Zakheim made about a legal definition of ``urgency.'' I 
think that you are on target with your definition.
    Who should be the adjudicator of that definition? In other 
words, who should make the decision that a particular proposal 
meets the definition of ``urgency''?
    Dr. Zakheim. Well, that would be, in my view--and I think 
my colleagues on the task force would agree--it would be the 
Director of RAFA.
    Now, you get the needs coming in. If you had an 
organization that was dedicated to getting things out on the 
street--or actually on the battlefield--within 24 months, then 
that is the person who conducts, his staff or her staff 
conducts the triage and makes that definition.
    Mr. Andrews. How do we avoid the inherent cultural problem 
around here that potential vendors of these products would have 
a huge incentive to define everything as ``urgent''? How do we 
get around that?
    Dr. Zakheim. Because the requirement will not be generated 
by the vendors. The requirement is generated by the field. I 
think that is what Mike Brogan was talking about in terms of 
MRAP.
    General Brogan. I would submit, sir, that certainly the 
adjudicator of whether or not it can be conducted in a rapid 
manner would be the organization that Dr. Zakheim described. 
But determining that a need is urgent and that it endangers 
U.S. personnel or mission accomplishment has to come from the 
commanders in the field, the Combatant Commander, the Joint 
Staff, and the Joint Requirements Oversight Committee.
    Mr. Andrews. Exactly.
    Dr. Zakheim. I agree with that entirely.
    Mr. Andrews. I would, too.
    I think that the important second part of that clause, 
though, is ``come from the commanders in the field'' to whom?
    Sadly, the case of the MRAP was obviously urgent. We had 
young men and women dying, and the urgency was painfully 
obvious. I think there are other urgencies that would not be so 
obvious because the immediate costs would not be so high; and I 
want to be sure that we are acutely tuned in to the reports 
from our commanders.
    Let me just ask a follow-up.
    Dr. Zakheim.
    Dr. Zakheim. I think, maybe, the way to look at it is this: 
You get the requirements coming in, and they are defined as 
``urgent,'' and there are multiple requirements; and that is, I 
think, what you are talking about.
    Mr. Andrews. Yes.
    Dr. Zakheim. That is what the triage, to some extent, is 
about. That is why you need some operations research and 
systems analysis as well.
    But finally--I mean, for instance, if this three-star is 
getting calls from different four-stars, which could happen, 
that is why this person reports to the Under Secretary of AT&L 
with a dotted line relationship to the Vice Chairman of the 
Joint Chiefs so that for those really high-level decisions you 
have high-level support.
    Mr. Andrews. Let me ask you a question, Mr. Dee, about the 
233 JUONs that have been processed. There are 59 left 
unresolved.
    Are there data that would characterize the 174 that have 
been resolved? Have they each been resolved to the level of 
success that we have here? How would you generally characterize 
the performance of the resolved JUONs?
    Mr. Dee. To call a JUON ``resolved'' would mean that its 
capability is provided to the satisfaction of the combatant 
commander in dialogue with the component task forces. So all of 
the JUONs that have been closed and that are considered 
resolved have met the satisfaction of the combatant commander.
    Now, whether or not it met the performance criteria that 
was originally laid out in that original JUON may or may not be 
true. What happens is, after a JUON comes in, as has already 
been discussed, a triage does go on, and there is a discussion 
and a dialogue back with the combatant commander.
    Mr. Andrews. Have we developed metrics that are external to 
the judgment of the commander in the field, the external data, 
objective data?
    Mr. Dee. No, sir, we have not.
    Mr. Andrews. Do you think we should?
    Mr. Dee. Yes, sir. Absolutely, we should. But there needs 
to be a recognition that the range of urgent requirements 
covers a very broad scope of technologies, of capabilities that 
recognize--and we are struggling to develop metrics for this.
    Mr. Andrews. There is a final point I will make--and then I 
want to yield to my colleagues--for any of the members of the 
panel to submit for the record.
    It is my understanding that the most important metric in 
the MRAP program, which I would express as the reduction in 
fatalities per attack and serious injuries per attack, is 
pretty compelling. If someone could submit that for the record, 
we would like to see it. In other words, translate this into 
lay people's language so I can understand.
    [The information referred to is classified and retained in 
the Panel files.]
    Mr. Andrews. The odds of an IED attack killing the 
occupants of the vehicle dropped dramatically, and the odds of 
serious injury dropped dramatically as a result of the success 
of the program. That is what we care the most about, as you 
said, General, very, very well. So anything that would quantify 
that we would appreciate.
    Mr. Conaway.
    Mr. Conaway. Well, thanks, Chairman.
    Again, thanks, gentlemen, for being here.
    General, I will start with you. You mentioned that the MRAP 
met all of the existing requirements and processes that it went 
through, that you did not skip anything.
    In hindsight, are there things that were really more form 
than substance or additional things that we can do to eliminate 
barriers and just pencil-pushing that really did not protect 
the system from exploitation and did not get the gear to the 
people quicker?
    Can you give us any kind of recommendations to change 
things that you saw now that you have been through it once in a 
very successful way?
    General Brogan. Sir, my sense is that we took a look at all 
of the documentation that is required for the acquisition 
Category 1 program, because Secretary Krieg made it apparent 
early on that eventually it was going to rise to that level and 
be designated as such.
    We looked at which ones we needed in the program office to 
be able to do the job and accomplish the mission, which ones 
satisfied statutory requirements for reporting, which ones 
satisfied regulatory requirements. We decided we would do the 
ones that the program office needed done to accomplish the 
mission; we would tailor each of the rest of them and either 
provide an abbreviated version or push it until later in the 
process when we had more time and could, in a deliberate 
manner, lay it out.
    One of the examples would be the systems engineering plan. 
Because we were buying designs that existed and were going to 
be integrating known command and control systems, situational 
awareness systems, jammers, things like that, weapons onto the 
platform, we did not need a long, drawn-out systems engineering 
plan that told us all the steps we would go through with 
initial design review and critical design review and things of 
that nature.
    So we tailored the Systems Engineering Plan (SEP) early on, 
and have just, frankly, in the last couple of months, completed 
the full-blown version and delivered it.
    Mr. Conaway. Okay. Why did you need to complete the full-
blown version? I mean, somebody had to do that. Their attention 
could have been on something else besides, you know, 
documenting the file, so to speak.
    Was that essential to do that? Maybe we could get the GAO 
to come look at that system.
    It is things that you do just because it says you have to 
do them, but they do not contribute to protecting the 
taxpayer--well, getting the gear, first, and then protecting 
the taxpayer, second, which is what a lot of that stuff you are 
talking about does. If we do not need to do it, you simply did 
it just to pay for the file----
    General Brogan. Well, we did it, sir, because we did need 
to document the configuration management process. You know, we 
fielded these vehicles quickly. We have updated them and have 
added additional capability to them, as we have gone on.
    One of the ones particularly important right now is adding 
the independent suspension system. These vehicles were fielded 
with solid axles, leaf springs, not made to go off road. By 
upgrading that suspension, we can.
    And so configuration management is one of those systems 
engineering practices that does have value, but we did not need 
it early on. We do need it now.
    Mr. Conaway. All right.
    Doctor, you talk about a dual process, new silos, but you 
also used the word ``culture.'' Then help us distinguish 
between Recommendation 1 and 3 as to why that wasn't just one 
recommendation.
    Dr. Zakheim. Well, I think you have got to really focus 
quite specifically on the cultural side of things. If you 
create a separate organization and you have not really paid a 
lot of attention to the kinds of people you are bringing in, 
that organization will wind up looking like the original 
organization very, very quickly. They will find a way to cross 
every ``T'' and dot every ``I''.
    When Congress passed Goldwater-Nichols, it changed the 
entire power balance inside the Department of Defense. I mean, 
when I served in the 1980s, the Joint Staff was a place where 
people went prior to immediate retirement. It was a place, 
frankly, for dead-enders.
    Goldwater-Nichols turned this on its head. It essentially 
says you cannot become a flag or a general officer unless you 
have got that Joint badge on your chest. All of a sudden, all 
the best people start coming, and the Joint Staff is 
exceedingly powerful.
    When Mike Brogan said a few minutes ago that, you know, the 
RAFA Director would not work on his or her own, that is 
absolutely right. In fact, the report specifically says it 
works with the Joint Staff. Why? Because the Joint Staff 
already has been making choices and doing triage.
    What we are saying in the report is, you need the same--and 
there are all sorts of programs. There is the Presidential 
Management Fellows Program. There is the Intergovernmental 
Personnel Act (IPA) program. There are a host of different 
programs that get best civilians in. We need to ensure that the 
best military people come in, because then you create a truly 
powerful organization that can make choices.
    Mr. Conaway. So how does Recommendation 3 not fulfill 
Recommendation 1?
    Dr. Zakheim. Oh, it does.
    Mr. Conaway. So they are the same?
    Dr. Zakheim. Again, the reason that they are separate, 
frankly, is that it is an implementer. You can have 
Recommendation 1, but without Recommendation 3, it ain't going 
to work.
    Mr. Conaway. Okay. The definition that you mentioned, 
``urgent,'' shouldn't it include specifically the 2-to-24-month 
thing? Because it is urgent that we develop a robot that takes 
the place of our soldiers. It would meet the other two 
definitions.
    It is not even remotely possible to get that in 24 months, 
because if you create this new organization, there will be 
competition for resources. There will be competition for work. 
There will be competition for people to the extent that RAFA is 
the premier organization you are trying to create that would 
attract the best and the brightest.
    So shouldn't the 24-month thing really be codified as well?
    Dr. Zakheim. Well, it could be. I mean, we discussed that 
quite a bit, and I think both of these gentlemen were there 
when some of this was discussed.
    The definition we gave was kind of an all-encompassing one. 
I think people could argue whether it is 2 months or 3 months, 
24 months or 26 months. We believe that this is what RAFA 
should be doing.
    There may be cases where you want to do something urgently, 
and it is outside the bounds. If you want to write it in, I 
personally would have no issue with it, frankly.
    Mr. Conaway. Okay. You mentioned a triage system. There has 
got to be a triage system in place now, doesn't there?
    Dr. Zakheim. There is. As you heard, what there is not is a 
systematic approach that includes, for instance, ORSA, the 
Operations Research and Systems Analysis. In other words----
    Mr. Conaway. Okay. Well, is that something that could be 
done separate and apart from any kind of legislative attention 
to it--the system, itself, Mr. Dee--or couldn't you fine-tune 
the triage system on your own?
    Mr. Dee. Yes, sir. Absolutely. Absolutely.
    Mr. Conaway. Okay.
    Mr. Dee. There is a triage system and there is not a triage 
system. There are multiple triage systems depending on the 
category with which an urgent need comes in. Every service, 
again, has got a process that they review their needs, urgent 
or traditional needs, as they come in the door, and they assign 
a priority to it and add resources. So that does go on.
    In the joint world, we do have a triage process that begins 
with the Joint Staff and their existing Functional Capabilities 
Board to be able to look at potential solutions for this and a 
proper provider. So we do have a triage process that goes on 
now.
    What we do need to do, quite honestly, is to be able to 
have that better dialogue with the requester and a recognition 
that these requirements, as they come in, need to be considered 
somewhat fungible based on the available technology that you 
have got--potential solutions, maturity, a balance of the 
operational risk and that programmatic risk. That needs to be a 
dialogue between the building folks and the folks in the field.
    Mr. Conaway. Can you report back to us on the progress that 
you are making on the things that you can do on your own, that 
you think are appropriate versus the things--because, as the 
chairman may say at the end of the process here, we are focused 
on the 2011 Defense Authorization Act. And so we are looking 
for things to do legislatively, but we are also anxious to get 
things done that you can do on your own.
    [The information referred to is classified and retained in 
the Panel files.]
    Mr. Dee. Absolutely.
    Mr. Conaway. I yield back, Mr. Chairman.
    Mr. Andrews. Mr. Conaway, I know the staff will appreciate 
that, as they have finally finished work on this year's bill, 
we are giving them assignments immediately that next year's 
bill has already begun.
    Mr. Conaway. No good deed goes unpunished.
    Dr. Zakheim. Mr. Conaway, I would just point out that 
Recommendation 3, of course, goes beyond culture and goes 
though this whole RAFA organization. In theory, one could argue 
we will have a separate rapid acquisition approach without 
setting up an organization. Quite frankly--and you are fully 
aware of how the building works--that will be one of the 
arguments, Why do we need a new organization?
    So we believe, unless you have a champion that pushes, that 
is truly in charge, you could go with Recommendation 1, but it 
may not be fully implemented.
    Mr. Conaway. So the issue is to step back from the 
Goldwater-Nichols because you are going from ``all under one 
hat'' back to separate silos.
    Dr. Zakheim. Exactly.
    Mr. Conaway [continuing]. And the risks attendant with 
that.
    Mr. Andrews. The Chair recognizes Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. And thank you members 
of the panel.
    I am worried there is a little bit of an error of self-
congratulation here about the relative success of acquisitions, 
particularly in regard to MRAPs. We mentioned three things that 
worry me.
    Number one, what we are talking about here is relative 
success in fielding weapons against a Third World force that 
used elemental technology like garage door openers and very 
cheap explosives. A lot of this was revealed in Secretary 
Rumsfeld's original 2003 memo about the cost-benefit equation 
of this type of asymmetric warfare.
    How would we be faring against a sophisticated enemy? I 
shudder to even ask that question.
    General Brogan. It wouldn't even be close. We are very well 
capable of dealing with a sophisticated enemy. We have built 
the U.S. Armed Forces for that for years. We now have to adjust 
in order to deal with the asymmetric enemy, sir.
    Mr. Cooper. Well, let's talk about that adjustment, 
fielding MRAPs.
    In your testimony, General, you say the initial requirement 
was 1,185 in November 2006, and now the requirement is 22,000. 
So far, with all of our success, 14,000 have been fielded in 
theater, and you said that delivery of trucks to the warfighter 
was the test. So we are still far short of the 22,000.
    The key is this: The current issue of the Joint Forces 
Quarterly says that probably 1,609 of our soldiers ended up 
being casualties due to slow fielding of MRAPs. Now, it is 
painful to ever quantify a shortcoming like that, but it is in 
the Joint Forces Quarterly. This is not some attack from the 
fringe. So, it is always impossible to be perfect, but I would 
suggest that by our own measures, we are not even coming close.
    General Brogan. Sir, certainly it took us a while to make 
the decision to pursue MRAP. Once that decision was made, I 
think that is the topic of the success that was achieved.
    The requirement was 16,238 for a long time after we got to 
that plateau, and we have delivered all but a handful of those 
vehicles into the hands of the U.S. Government. Now, some of 
those have gone to home station training bases, some are being 
used for testing evaluation. We have fulfilled the requirement 
for all of the baseline MRAP vehicles in Iraq and Afghanistan. 
That has been satisfied.
    Just recently, in fact in June of this year, the MRAP all-
terrain vehicle requirement went from 2,080 to 5,244, and then 
last month went up to 6,644. Those are the ones that are not 
yet fulfilled.
    We are in production in that vehicle. Oshkosh is the 
manufacturer. They were ahead of schedule in July, August and 
September. They are ramping up to be able to produce 1,000 of 
those vehicles per month in December and are on track to get 
there.
    Mr. Cooper. That, in itself, is a fascinating situation. 
Here we have a slump in the automobile industry in America and 
we have sole-sourced to one manufacturer that most people have 
never heard of, and it is kind of remarkable when, in World War 
II, a 24-month requirement, the war was half over by then.
    General Brogan. Respectfully, sir, we did not sole source. 
This was a full and open competition. Oshkosh has been building 
trucks for the U.S. military for more than 30 years.
    Mr. Cooper. But there is only one manufacturer.
    General Brogan. There is one company in charge. They are 
using two production facilities.
    Mr. Cooper. But don't we have other auto companies in 
America and truck companies that are looking for work?
    General Brogan. Yes, sir, but fundamentally building large 
armored trucks is not quite the same as a passenger sedan.
    Mr. Cooper. But in World War II, we didn't devote our 
entire aircraft or ship to one company.
    It is kind of interesting how we approach this, again, 
dealing with a Third World enemy. And perhaps we are perfectly 
and immaculately equipped for the First World enemies that we 
may be facing, but I am just suggesting they don't have too 
much high technology on their side.
    The third point is this, and here I am faulting Congress: 
The testimony says, ``Currently there are no funds in the FY 10 
base budget under consideration for a rapid acquisition fund, 
despite the administration request for $79 million.''
    So here I am faulting Congress. This is pretty amazing. If 
this is something to brag about and we zero fund it, and we 
require the Pentagon to beg, borrow and steal to get the monies 
from other accounts to put in, it is kind of embarrassing.
    Is this something worth bragging on, or not? Maybe Congress 
doesn't get it.
    Meanwhile, our own military publications are saying 1,609 
unnecessary casualties due to slow fielding of one type of 
weapon system that all our brilliant strategists and 
technicians somehow didn't anticipate the need for until 
years--years, into these conflicts. This is amazing.
    Mr. Dee.
    Mr. Dee. Sir, if I may just make a couple of comments on 
your observations.
    The comment concerning the current nature of today's war 
and preparations for future capabilities, I think when you are 
talking about and you are looking at our acquisition process, I 
think it is important to remember the way that Mr. Gates, 
Secretary Gates, is talking about future wars as hybrid wars. 
And there is not going to be a big distinction--there is going 
to be a mix of capabilities and a mix of adversaries and a mix 
of weapons and threats we are facing that range from the same 
things we are seeing today in terms of improvised explosive 
devices and other kinds of improvised weapons and easily 
commercially available weapons, and the high-end future missile 
systems, et cetera, et cetera; and you need to be able to do 
those all at once.
    Recognizing that the technology is moving so quickly these 
days, whatever we do for rapid acquisition needs to be 
applicable to the way we think about longer-term conventional 
warfare. We need a capability and we need a system that can be 
responsive.
    Regardless of what enemy we are talking about, we are 
always going to have unanticipated needs in war. We did in 
World War II, and we are going to have them in the future wars, 
as we have them today.
    On the funding thing, there is a lot of discussion, and 
Congress has been very supportive. And it is a difficult 
problem because the Department gets a lot of money, so why 
can't the Department just move money where they need to move 
it? Just the reality is that there is a lot of competition in 
the Department for resources because of this conflict between 
building future capabilities and responding to urgent needs.
    So the ability to have a rapid acquisition fund, as Dr. 
Zakheim has pointed out and the Defense Science Board, and as 
the MRAP task forces had and as JIEDDO has, if you want to do 
things quickly, you need quick, immediate access to resources. 
Without that, you are going to get stuck into the competition 
for resources within the building and the reprogramming 
actions, which all, in and of themselves, takes time to do.
    Mr. Cooper. If I could just inject, Dr. Zakheim's proposal 
was for a $3 billion fund, and he points out in his testimony 
that JIEDDO is already at $10 billion, and with it a heavy 
bureaucracy and uncertain results. So sometimes when we do 
throw money at a problem, you don't necessarily see the 
payback.
    I don't want to interrupt you.
    Dr. Zakheim.
    Dr. Zakheim. Well, obviously throwing money at a problem 
isn't the best way to do it.
    One of the things that I found when I was Comptroller is 
that when you go and ask for something like a $3 billion fund 
that we propose, we actually censor ourselves in the 
Department, and the reason is that we keep hearing from the 
Hill, these kinds of funds are slush funds and you are not 
going to manage the money right. So, we are very hesitant to 
come up with these sorts of requests.
    One of the reasons the DSB Task Force recommended this kind 
of oversight group and the regular reporting on a quarterly 
basis, and even more frequently as needed, was to allay these 
congressional concerns. Because if you are talking about this 
kind of a fund, where there isn't anything specific, then the 
competition inside the Department for those resources is 
tremendous; and one of the arguments made is, well, Congress 
isn't going to give you the money anyway, so why are you 
throwing $3 billion out the door? That is why these requests 
don't get made.
    We are suggesting a vehicle for assuring Congress that they 
have the transparency, that you have the visibility, that you 
have a say in things; so then it becomes a credible request, 
and then it is more likely that something along those lines may 
actually be put in the budget.
    Mr. Cooper. Mr. Sullivan.
    Mr. Sullivan. If I could, just to add to that, talk about 
the funding, the only problem here is not just the immediate 
access to funding, but it is the way that--if we are talking 
about fixing the current process, the funding, the way that 
they program and fund programs today. In fact, GAO looked at, 
years ago, some kind of a systems engineering fund that could 
be established, that also didn't really go anywhere because it 
would be thought of as kind of a slush fund.
    But there is a two-year wait for any program that starts up 
in the Department of Defense now that--if it is not urgent, 
there is basically a two-year lag time between trying to get 
your program going and receiving funding. That is an issue that 
is yet to be resolved, as well.
    Mr. Cooper. Thank you, Mr. Chairman. I see my time has 
expired.
    Mr. Andrews. Thank you.
    The Chair recognizes Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    One of the issues that has been discussed in this committee 
is the difficulty with continually placing requirements, new 
requirements, on a project without, really, a deadline.
    I think, Dr. Zakheim, you mentioned the 75 percent 
solution. There is always a drive for a 100 percent solution.
    So in this process of rapid acquisition, would you envision 
a cutoff, and beyond that cutoff, that maybe new requirements 
would have to come to a higher threshold? I know it was 
mentioned, Dr. Zakheim, again, that you said, maybe have 
Congress involved in the process, at least as observers; that 
maybe beyond a certain deadline that a requirement change would 
have to go up a higher level to sort of discourage that.
    Any comments on that from anybody?
    Mr. Dee. Sir, I mentioned a little while ago that the 
requirements need to be viewed as fungible, and that is true. 
As a requirement comes in, it needs to be balanced against the 
available, the maturity of the technology, what can be done 
quickly in order to provide a capability to the field. But that 
dialogue needs to happen before the decision is made to produce 
something.
    So, as this triage develops, you need to have the dialogue 
with the field. You need to figure out what is good enough. You 
have to answer the question, what is good enough to mitigate 
your immediate capability for the gap that you have got. And 
them you reach your production decision, and then you need to 
lock that requirement so you can actually get on with it.
    Not to preclude future spirals or future improvements to 
the capability you delivered, but you need to spend more time 
on that up-front dialogue, figuring out what you need to have. 
And when you figure it out and you agree to it and you resource 
it, then you get on with it; and the next spiral is viewed as 
the next iteration of something. But you don't interrupt the 
production line, you don't interrupt your acquisition efforts 
to continually morph the capability.
    Dr. Zakheim. I think Mr. Dee just put it very well. If you 
have got a desire to hit that 99 percent capability, that is 
part of a dialogue with the services and the Joint Staff; and 
that additional 25 percent, as it were, the system that gets 
you that 25 percent, that goes back in your regular acquisition 
system.
    Now, one thing I think might be useful to clarify, the task 
force deliberated as to whether we should look beyond just 
rapid acquisition at this larger system. We decided that, A, it 
was a little bit out of scope from what we were being asked. 
But, more importantly, that is such a long-standing headache, 
as everyone knows, that we figured if we could lay out a 
process for rapid acquisition that made some sense and develop 
some best practices, those could then be imported into the 
larger acquisition system.
    Let's face it. We are not doing ourselves any favors with 
an acquisition system that takes 15 years to get something out 
the door. Think about the fact that from the time Hitler took 
power, when the Germans were training with broomsticks, to the 
time he marched down the Champs-Elyses, was only 7 years, and 
technology now improves so much more quickly.
    We have to do something about the larger acquisition 
system, and we thought that perhaps if we can come up and the 
Department working with the Congress comes up with a viable 
rapid system, we could then extract some next best practices 
for that, for the kinds of things that Mr. Dee and you were 
just talking about, moving from that 75 percent solution to 
that 99 percent solution.
    General Brogan. If I may, sir, with MRAP in particular, 
when the initial request came in, there was one requirement 
that we did not have the ability to immediately meet, the 
Explosively Formed Penetrator (EFP). And through a consultative 
process between the JRAC and U.S. Central Command, we locked 
down those requirements.
    Then Admiral Giambastiani, as the Vice Chairman of the 
Joint Chiefs and Chairman of the JROC, made it very clear to 
everyone involved that he would control not only key 
performance parameters, which normally reside at that level, 
but the key system attributes of the vehicle as well, and that 
no one could change them without JROC approval.
    So that kept us from having to deal with requirements 
creep, with all the good ideas that people want to add later 
on, and allowed us to move forward very quickly.
    Then when we later got a solution to EFP, we had built in 
the ability to retrofit it into the vehicles, and we were able 
to go back and add that to vehicles that were previously 
fielded and include it in those that were yet to be produced.
    Mr. Sullivan. If I could just make a point, I agree with 
everything everyone is saying here. If you look at MRAP today, 
in fact as an urgent need, as a rapid acquisition, it actually 
has become the first increment of what will probably become a 
regular acquisition program that has block upgrades for years 
to come.
    So the tech base, what they did right was they kept those 
requirements to what they can do right now, get some breathing 
room, get our troops some equipment, and now they have an 
opportunity in the regular process if the tech base, if and 
when the tech base responds. I am sure there are all kinds of 
good things that come out of that. Open systems, I am sure, has 
been looked at in that regard,
    The programs that I mentioned in my oral statement were 
part of the regular acquisition process, and more or less they 
did that. If you go back and look at the F-16, it held the line 
on requirements, and all of those others that I mentioned held 
the line on requirements.
    One thing that we are looking at now, it is such an 
exception in the regular process to be able to start a program 
with doable requirements. We are trying to figure out how those 
programs were able to do that in this culture.
    Mr. Coffman. Mr. Chairman, I yield back.
    Mr. Andrews. Thank you.
    Mr. Conaway, do you have any concluding remarks this 
morning?
    Mr. Conaway. Just one thing quickly.
    Mike, the transitioning in Afghanistan from the units that 
were originally bought for Iraq, you mentioned that. Walk us 
through a little bit of how quickly you were able to identify 
the fact you had to go off road in Afghanistan and how nimble 
the system was to meeting up a new version or new variant of 
the MRAP.
    General Brogan. Yes, sir, there are two pieces to that. The 
first is, we fielded some baseline MRAPs into Afghanistan, 
principally the RG-31s, because they were the smallest, had the 
tightest turning radius, which was one of the attributes that 
the warfighter there was looking for.
    Then he asked for a vehicle that had the off-road 
capability of a Humvee, but the survivability inherent in an 
MRAP, and that was really the genesis of the MRAP all-terrain 
vehicle.
    Particularly in my service, because we didn't want to buy a 
whole additional fleet of vehicles, the Commandant was very 
interested in our ability to upgrade the suspension of those 
vehicles that we had already purchased and be able to employ 
them in that environment.
    We had also been receiving complaints from the field about 
how poor the ride quality was in the vehicle. It is a heavy 
truck, solid axle, leaf springs. It is painful if that vehicle 
leaves the road.
    We had started in the program office a search for an 
improvement for the suspension, and we did that through the 
Nevada Automotive Test Center. We down-selected to what turns 
out to be the same suspension that is on the Marine Corps's 
seven-ton medium tactical vehicle replacement truck, built by 
Oshkosh, already in the system, all the repair parts are 
available; and we were able to put that onto our Cougars, both 
Category I and Category II. We are now looking at putting it on 
the RG-33s, and we are in the process of upgrading that 
suspension so we can make use of the vehicles already purchased 
by the taxpayer in an environment that is far more inhospitable 
from a terrain standpoint.
    So we have had those two tracks going on. One, an MRAP all-
terrain vehicle, is going to be much smaller than Cougar. 
Cougar is about 40,000 pounds, combat loaded at its lightest. 
MRAP all-terrain is right at 30,000, combat loaded.
    Mr. Conaway. Give me a sense, Mike, of the time frame this 
all occurred in.
    General Brogan. Yes, sir. We received the JUONs for MRAP 
all-terrain in the fall of last year. We conducted the 
competition through the late winter. It was a full and open 
competition. We required the vendors to deliver trucks with 
their proposal. That kept all the PowerPoint guys away, folks 
who just had good ideas but no hardware.
    Then we whittled that down to five vendors who had actual, 
viable candidates. We gave each of them a contract with an 
initial delivery order for three more vehicles that we put 
through a rather rigorous test regime. We provided them the 
results of the test, gave them the chance to revise their 
proposals in what is called a fair opportunity revision. Then 
we graded those proposals, the test results and made our 
contract production award to Oshkosh.
    We had thought that we may need to use more than one 
vendor. We had also--I met personally with the leadership of 
all five of those companies--although one person represented 
two of them, because BAE had two entries in their two different 
divisions--and asked them before we made the production award 
decision, ``Would you be willing to license your vehicle to 
someone else to produce if you are the winner and would you be 
willing to produce someone else's vehicle if you are the 
loser?'' And they all said, ``Will you help us with any 
monopoly issues, with teaming arrangements?'' We agreed to do 
that. So we had that ability.
    Oshkosh is going to be producing 1,000 trucks a month in 
December. We can only absorb 500 vehicles a month in 
Afghanistan because of the throughput of other war materiel, 
because we have to take the soldiers off of the operating 
bases, train them on that vehicle, and then send them back out.
    So--we are going to be producing many more than we are 
capable of absorbing, so there was no need to really go to 
multiple vendors in order to accomplish and fulfill this 
requirement.
    Mr. Conaway. Thank you.
    Mr. Chairman, that is it.
    Mr. Andrews. Thank you very much.
    General, you have done a lot for your country, but figuring 
out a way to reduce PowerPoint presentations may be your 
greatest contribution, for which we are very grateful.
    I want to thank the panel for their excellent preparation 
and contribution this morning. As we proceed, we are going to 
examine two questions as we make a report and legislative 
recommendations to the full committee for next spring. One of 
them will be ways to further improve and fine tune the rapid 
acquisition process, whether it is to assure the tech base that 
is necessary, whether it is to tighten and explicitly define 
the definition of urgency, whether it is to sharpen the triage 
process. A lot of good ideas we have heard this morning will go 
into that consideration.
    The second area of inquiry will be the lessons learned 
area, the extent to which we can take this exceptional process 
and use its lessons learned in the rule, what is not urgent and 
not rapid.
    We would invite the continued contribution of each of our 
four witnesses to each of those two questions as we go forward.
    Mr. Sullivan, we would particularly welcome your thoughts 
about the way that this, what I characterize as a ``tech 
bullpen,'' could be created and funded in moving forward.
    [The information referred to can be found in the Appendix 
on page 91.]
    Mr. Andrews. We had high hopes for this morning's hearing, 
and you gentlemen have exceeded those hopes. We appreciate that 
very much. Any information for the record should be submitted 
as we had asked.
    With that, the hearing is adjourned.
    [Whereupon, at 9:22 a.m., the panel was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            October 8, 2009

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 8, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7696.057
    
    [GRAPHIC] [TIFF OMITTED] T7696.001
    
    [GRAPHIC] [TIFF OMITTED] T7696.002
    
    [GRAPHIC] [TIFF OMITTED] T7696.003
    
    [GRAPHIC] [TIFF OMITTED] T7696.004
    
    [GRAPHIC] [TIFF OMITTED] T7696.005
    
    [GRAPHIC] [TIFF OMITTED] T7696.006
    
    [GRAPHIC] [TIFF OMITTED] T7696.007
    
    [GRAPHIC] [TIFF OMITTED] T7696.008
    
    [GRAPHIC] [TIFF OMITTED] T7696.009
    
    [GRAPHIC] [TIFF OMITTED] T7696.010
    
    [GRAPHIC] [TIFF OMITTED] T7696.011
    
    [GRAPHIC] [TIFF OMITTED] T7696.012
    
    [GRAPHIC] [TIFF OMITTED] T7696.013
    
    [GRAPHIC] [TIFF OMITTED] T7696.014
    
    [GRAPHIC] [TIFF OMITTED] T7696.015
    
    [GRAPHIC] [TIFF OMITTED] T7696.016
    
    [GRAPHIC] [TIFF OMITTED] T7696.017
    
    [GRAPHIC] [TIFF OMITTED] T7696.018
    
    [GRAPHIC] [TIFF OMITTED] T7696.019
    
    [GRAPHIC] [TIFF OMITTED] T7696.020
    
    [GRAPHIC] [TIFF OMITTED] T7696.021
    
    [GRAPHIC] [TIFF OMITTED] T7696.022
    
    [GRAPHIC] [TIFF OMITTED] T7696.023
    
    [GRAPHIC] [TIFF OMITTED] T7696.024
    
    [GRAPHIC] [TIFF OMITTED] T7696.025
    
    [GRAPHIC] [TIFF OMITTED] T7696.026
    
    [GRAPHIC] [TIFF OMITTED] T7696.027
    
    [GRAPHIC] [TIFF OMITTED] T7696.028
    
    [GRAPHIC] [TIFF OMITTED] T7696.029
    
    [GRAPHIC] [TIFF OMITTED] T7696.030
    
    [GRAPHIC] [TIFF OMITTED] T7696.031
    
    [GRAPHIC] [TIFF OMITTED] T7696.032
    
    [GRAPHIC] [TIFF OMITTED] T7696.033
    
    [GRAPHIC] [TIFF OMITTED] T7696.034
    
    [GRAPHIC] [TIFF OMITTED] T7696.035
    
    [GRAPHIC] [TIFF OMITTED] T7696.036
    
    [GRAPHIC] [TIFF OMITTED] T7696.037
    
    [GRAPHIC] [TIFF OMITTED] T7696.038
    
    [GRAPHIC] [TIFF OMITTED] T7696.039
    
    [GRAPHIC] [TIFF OMITTED] T7696.040
    
    [GRAPHIC] [TIFF OMITTED] T7696.041
    
    [GRAPHIC] [TIFF OMITTED] T7696.042
    
    [GRAPHIC] [TIFF OMITTED] T7696.043
    
    [GRAPHIC] [TIFF OMITTED] T7696.044
    
    [GRAPHIC] [TIFF OMITTED] T7696.045
    
    [GRAPHIC] [TIFF OMITTED] T7696.046
    
    [GRAPHIC] [TIFF OMITTED] T7696.047
    
    [GRAPHIC] [TIFF OMITTED] T7696.048
    
    [GRAPHIC] [TIFF OMITTED] T7696.049
    
    [GRAPHIC] [TIFF OMITTED] T7696.050
    
    [GRAPHIC] [TIFF OMITTED] T7696.051
    
    [GRAPHIC] [TIFF OMITTED] T7696.052
    
    [GRAPHIC] [TIFF OMITTED] T7696.053
    
    [GRAPHIC] [TIFF OMITTED] T7696.054
    
    [GRAPHIC] [TIFF OMITTED] T7696.055
    
    [GRAPHIC] [TIFF OMITTED] T7696.056
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            October 8, 2009

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. ANDREWS

    Mr. Sullivan. The concept of a ``tech bullpen''--that is, having 
relevant and feasible technologies available to transition into product 
development on major weapon system acquisition programs is doable, but 
the department and the services would have to significantly change the 
way their current science & technology environment is structured, 
funded, and organized to meet the needs of the acquisition community 
and the warfighter. Stovepipes must be eliminated, funding should be 
shifted from acquisition to science and technology organizations for 
technology exploration and development, and much better communication 
between the acquisition programs and the technology base must be 
established. We have visited world class technology firms who have been 
able to put in place practices to ensure that the proper technologies 
are being nurtured to meet their customer requirements and that they 
are ready and mature enough to transition to product lines in order to 
meet the customer's needs in a timely manner. We believe DOD could 
benefit from adopting some of these practices and adapting them to its 
own national security mission.
    Leading commercial companies use three key techniques for 
successfully developing and transitioning technologies, with the basic 
premise being that technologies must be mature before transitioning to 
the product line side.
    <bullet>  Strategic planning at the corporate level: Strategic 
planning precedes technology development so managers can gauge market 
needs, identify the most desirable and relevant technologies, and 
prioritize resources. Strategic planning is considered a precursor to 
transition and allows managers to identify market needs so the company 
can quickly adapt its technology portfolios to meet those needs.
    <bullet>  Gated management reviews: A rigorous process with 
meaningful metrics is used to ensure a technology's relevancy and 
feasibility and enlist product line commitment to use the technologies 
once the labs are finished maturing them.
    <bullet>  Corroborating tools: To secure commitment, technology 
transition agreements solidify and document specific cost, schedule, 
and performance metrics labs need to meet for transition to occur. 
Relationship managers address transition issues within the labs and 
product line teams and across both communities. Meaningful metrics 
gauge project progress and process effectiveness.
    Over the past several years, DOD has taken steps to improve its 
transition processes, but it lacks many of the techniques that are 
hallmarks of leading firms' ability to transition technology smoothly 
onto new products. From a strategic perspective, the department lacks 
strong influence at the corporate level to guide the department's 
technology investments. In addition, DOD does not use a gated process 
with criteria that would allow lab and program managers to know when a 
technology is ready to transition. Consequently, technologies are often 
not ready when needed and acquisition programs pull the technologies 
into their programs too early, leading to inefficiency during product 
development and cost and schedule increases.
    We've found that DOD has taken some positive steps to aid 
technology transition. They hold promise, but must be accepted, 
improved, and replicated significantly more than currently to have a 
positive impact. For example, each of the military services has 
established boards to select and oversee some of their technology 
projects and has elevated the importance of meaningful metrics. They 
are also using technology transition agreements. However, use of these 
agreements thus far has been low. With regard to improving 
communication, DARPA is using relationship managers to address 
transition issues. And the Office of the Secretary of Defense has 
initiated a number of new programs, including the Joint Capability 
Technology Demonstration program, which requires the S&T and 
acquisition communities to work more collaboratively earlier in the 
acquisition process.
    Despite different environments, we think the practices used by some 
of the world class firms we've visited can help DOD make better 
progress in transitioning technologies to weapon programs if adopted 
and adapted. Private companies operate in a competitive environment 
that demands speedy delivery of innovative, high-quality products to 
satisfy market needs or the company will go out of business. DOD has a 
variety of ``customers'' and complex relationships that often hinder 
the chief technology officer at the corporate level from providing the 
type of strategic leadership found at successful companies.
    DOD puts pressure on itself to develop many new technologies. And 
because competition for funding is fierce, the technologies described 
with many superlatives for speed and lethality tend to get more 
attention than others do. We previously reported that to secure 
funding, DOD program managers frequently make overly optimistic 
promises to the warfighter about technologies' cost, feasibility, risk, 
and delivery schedule. The challenge for DOD and congressional decision 
makers lies not only in the ``how to'' aspects of technology transition 
but also in creating stronger and more uniform incentives that 
encourage the S&T and acquisition communities to work together to 
deliver mature technologies to programs. [See page 26.]

                                  <all>

</pre></body></html>
